(1 of 6)
Case: 20-50213, 06/29/2021, ID: 12157269, DktEntry: 24-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUN 29 2021
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S. COURT OF APPEALS

No. 20-50213
D.C. No. 2:02-cr-00531-RSWL-1

v.
CENOBIO HUMBERTO HERRERA, Sr.,
AKA Bert Herrera, AKA Cenobio Herrera
Lanz, AKA Cenobio Humberto Lanz,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Ronald S.W. Lew, District Judge, Presiding
Submitted June 21, 2021**
Before:

SILVERMAN, WATFORD, and BENNETT, Circuit Judges.

Cenobio Humberto Herrera, Sr., appeals from the district court’s order
denying his motion for compassionate release under 18 U.S.C. § 3582(c)(1)(A)(i).
We have jurisdiction under 28 U.S.C. § 1291. We review for abuse of discretion,

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
App. 1a

(2 of 6)
Case: 20-50213, 06/29/2021, ID: 12157269, DktEntry: 24-1, Page 2 of 2

see United States v. Aruda, 993 F.3d 797, 799 (9th Cir. 2021), and we affirm.
Contrary to Herrera’s arguments, the district court did not rely on any clearly
erroneous material facts. Although the district court repeated a calculation error
from the presentence report regarding the amount of drugs involved in Herrera’s
offense, the mistake was of no consequence because even the correct amount
would have triggered the maximum offense level in the Guidelines, which was the
concern of the court. The district court also accurately stated that Herrera’s sister
received a similar sentence, even if the Bureau of Prisons (“BOP”) had
subsequently transferred her to home confinement. See United States v. Earl, 729
F.3d 1064, 1066 (9th Cir. 2013) (observing that a defendant “remains in BOP’s
legal custody” while on home confinement).
The district court considered Herrera’s age and medical conditions and did
not abuse its discretion in concluding that the 18 U.S.C. § 3553(a) sentencing
factors weighed against release. See 18 U.S.C. § 3582(c)(1)(A) (district court must
consider the applicable § 3553(a) sentencing factors on a motion for compassionate
release); United States v. Robertson, 895 F.3d 1206, 1213 (9th Cir. 2018) (a district
court abuses its discretion only if its decision is illogical, implausible, or without
support in the record).
AFFIRMED.

2

20-50213

App. 2a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 1 of 14 Page ID #:2580

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12 UNITED STATES OF AMERICA,

) CR 02-531-RSWL-1
)
13
)
) ORDER RE: DEFENDANT’S
14
Plaintiff,
) RENEWED MOTION TO REDUCE
) SENTENCE PURSUANT TO 18
15
v.
) U.S.C. § 3582(c)(1)
) [546]
16
)
17 CENOBIO H. HERRERA, SR., et )
)
al.,
)
18
)
Defendants.
19
)
)
20
)
21
Currently before the Court is Defendant Cenobio H.
22 Herrera Sr.’s (“Defendant”) Renewed Motion to Reduce
23 Sentence Pursuant to 18 U.S.C. § 3582(c)(1) (“Motion”)
24 [546], filed on May 18, 2020. Having reviewed all
25 papers submitted pertaining to this Motion, the Court
26 NOW FINDS AND RULES AS FOLLOWS: the Court DENIES
27 Defendant’s Motion.
28 ///
1

App. 3a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 2 of 14 Page ID #:2581

1
2

I. BACKGROUND
In May 2002, Defendant was indicted for: conspiracy

3 to aid and abet the manufacture of more than 500 grams
4 of a mixture or substance containing a detectable
5 amount of methamphetamine and to possess
6 pseudoephedrine knowing or having reasonable cause to
7 believe that it would be used to manufacture a
8 controlled substance, in violation of 21 U.S.C. § 846,
9 841(a)(1), 841(c)(2), and 18 U.S.C. § 2; illegal
10 possession of pseudoephedrine in violation of 21 U.S.C.
11 § 841(c)(2); and conspiracy to commit money laundering
12 and substantive money laundering in violation of 18
13 U.S.C. §§ 1956(h), 1956(a)(1), and 1957 [1].

On March

14 19, 2003, a jury convicted Defendant on all counts of
15 the indictment [130, 133].

This Court entered judgment

16 against Defendant on December 22, 2003 [183], and
17 sentenced him to 360 months’ imprisonment [182].

Upon

18 release from imprisonment, Defendant shall be placed on
19 supervised release for a term of five years [182].
20
21 A.
22

II. DISCUSSION
Legal Standard
The First Step Act, Pub. L. No. 115-391, 132 Stat.

23 5194, was enacted in 2018 and permits a defendant to
24 directly petition the district court for a sentence
25 reduction under the compassionate release statute. See
26 18 U.S.C. § 3582(c)(1)(A). 18 U.S.C. § 3582(c)(1)(A)
27 incorporated the following procedures with respect to
28 requests for compassionate release:
2

App. 4a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 3 of 14 Page ID #:2582

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

The court may not modify a term of imprisonment
once it has been imposed except that the court,
upon motion of the Director of the Bureau of
Prisons, or upon motion of the defendant after
the defendant has fully exhausted all
administrative rights to appeal a failure of
the Bureau of Prisons to bring a motion on the
defendant’s behalf or the lapse of 30 days from
the receipt of such a request by the warden of
the defendant’s facility, whichever is earlier,
may reduce the term of imprisonment (and may
impose a term of probation or supervised
release with or without conditions that does
not exceed the unserved portion of the original
term of imprisonment), after considering the
factors set forth in section 3553(a) to the
extent that they are applicable, if it finds
that . . . extraordinary and compelling reasons
warrant such a reduction . . . and that such a
reduction is consistent with applicable policy
statements issued by the Sentencing
Commission . . . .
The statute establishes a three-step process for
Courts to evaluate a defendant’s request for
compassionate release.

First, a defendant must exhaust

his or her administrative remedies by either
“exhaust[ing] all administrative rights to appeal a
failure of the Bureau of Prisons to bring a motion on
the defendant’s behalf” or waiting until thirty days
have lapsed “from the receipt of such request by the
warden of the defendant’s facility” to reduce the term
of imprisonment.

Id.

Second, the district court

evaluates whether “extraordinary and compelling reasons
warrant such a reduction” and that such a reduction “is
consistent with applicable policy statements issued by
the Sentencing Commission.”

Id.

Third, the district

court considers the sentencing factors outlined in
“section 3553(a) to the extent that they are
3

App. 5a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 4 of 14 Page ID #:2583

1 applicable.”
2

Id.

The defendant “bears the initial burden to put

3 forward evidence that establishes an entitlement to a
4 sentence reduction.”

U.S. v. Greenhut, No. 2:18-CR-

5 00048-CAS-1, 2020 WL 509385, at *1 (C.D. Cal. Jan. 31,
6 2020) (citing U.S. v. Sprague, 135 F.3d 1301, 1306-07
7 (9th Cir. 1998)).
8 B.

Discussion

9

1.

10

Exhaustion of Administrative Remedies

The parties do not dispute that Defendant has

11 exhausted his administrative obligations as it relates
12 to his COVID-19 concerns. Warden B. von Blanckensee
13 denied Defendant’s release request on April 8, 2020 and
14 this Motion was filed on May 18, 2020. See Ex. A in
15 Supp. of Mot. (“Request Denial”), ECF No. 546-1; Mot.,
16 ECF No. 546. As such, the Court turns to address the
17 Motion on its merits.
18
2. Extraordinary and Compelling Reasons
19
The Court previously found in its Order re
20 Defendant’s Motion to Reduce Sentence (“First Release
21 Order”) [536] that extraordinary and compelling reasons
22 exist favoring compassionate release under U.S.S.G.
23 1B1.13 Application Note 1(B). See generally First
24 Release Order 7:27-8:1; 8:21-23, ECF No. 536
25 (“Defendant is currently seventy-five years old,
26 suffers from a number of severe medical conditions, and
27 has served well over ten years of his sentence . . . .
28 As such, the Court finds extraordinary and compelling
4

App. 6a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 5 of 14 Page ID #:2584

1 reasons exists favoring compassionate release under
2 U.S.S.G. 1B1.13 Application Note 1(B).”).

The fact

3 that Defendant has unfortunately tested positive for
4 COVID-19 does not alter the Court’s prior determination
5 that extraordinary and compelling reasons exist given
6 Defendant’s age and serious health conditions related
7 to the aging process.
8

3.

9

The Court’s First Release Order denied Defendant’s

The Section 3553 Factors

10 motion based on the section 3553(a) factors.
11 Therefore, the parties here have dedicated the majority
12 of their arguments to discussion of these factors.

As

13 previously outlined in the First Release Order, simply
14 finding that “extraordinary and compelling” reasons
15 exist does not automatically entitle a defendant to
16 compassionate release.

18 U.S.C. section 3553(a)

17 provides the Court with a set of factors to be
18 considered during the original sentencing and which
19 need be reconsidered when evaluating compassionate
20 release.
21
22
23
24
25

The statute provides:

(a) Factors To Be Considered in Imposing a
Sentence. — The court shall impose a sentence
sufficient, but not greater than necessary, to
comply with the purposes set forth in paragraph
(2) of this subsection. The court, in
determining the particular sentence to be
imposed, shall consider—

26

(1) the nature and circumstances of the
offense and the history and
characteristics of the defendant;

27

(2) the need for the sentence imposed—

28

(A) to reflect the seriousness of the
5

App. 7a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 6 of 14 Page ID #:2585

1
2
3
4
5
6
7
8
9
10
11
12
13
14

offense, to promote respect for the
law, and to provide just punishment
for the offense;
(B) to afford adequate deterrence to
criminal conduct;
(C) to protect the public from further
crimes of the defendant; and
(D) to provide the defendant with needed
educational or vocational training,
medical care, or other correctional
treatment in the most effective
manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing
range established for—
(A) the applicable category of offense
committed by the applicable category
of defendant as set forth in the
guidelines [issued by the Sentencing
Commission];

15

(5) any pertinent policy statement;

16

(6) the need to avoid unwarranted sentence
disparities among defendants with similar
records who have been found guilty of
similar conduct; and

17
18
19
20
21
22
23
24
25
26
27

(7) the need to provide restitution to any
victims of the offense.
18 U.S.C. § 3553(a).
Here, Defendant relies almost exclusively upon two
new arguments.

First, Defendant highlights that he

recently missed two scheduled renal care visits and
labs that were supposed to be run by April 1, 2020, do
not appear to have been conducted.

Mem. of P. & A. in

Supp. of Mot. (“Mem.”) 6:16-19, ECF No. 546.

Defendant

argues that the medical resources in FCI Lompoc are

28
6

App. 8a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 7 of 14 Page ID #:2586

1 being allocated towards COVID-19 and away from other
2 medical services.

Id.

As a result, Defendant states

3 that release is warranted because he will be able to
4 most effectively receive medical care outside of his
5 facility.

Id. at 7:3-11.

Second, Defendant repeatedly

6 references his updated release plan, which he claims
7 supports that he poses no risk to the public if
8 released.

Id. at 8:14-28.

In response, the Government

9 fails entirely to address Defendant’s argument
10 regarding the inadequacy of care available at FCI
11 Lompoc and states that “Defendant’s release plan, while
12 more thought-out, does not change [that] . . . the
13 [s]ection 3553 factors do not support release.”

Mem.

14 P. & A. in Supp. of Opp’n (“Opp’n”) 4:25-27, ECF No.
15 551.
16

For the reasons discussed below, the Court finds

17 that Defendant has failed to carry his burden to put
18 forth evidence to show that he is entitled to a
19 sentence reduction in light of the section 3553(a)
20 factors.
21

a.

Nature and Circumstances of Offense,

22

History and Characteristics of Defendant,

23

and Types of Sentences Available

24

As the Court previously discussed in its First

25 Release Order, Defendant has a criminal record dating
26 back to the early 1980s and previously participated in
27 a multi-million dollar investment fraud in 1994 prior
28 to the conduct that gave rise to the instant Action.
7

App. 9a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 8 of 14 Page ID #:2587

1 See Pre-Sentence Report (“PSR”) ¶ 27.

At the time of

2 his arrest for the instant offenses, Defendant was
3 already in custody serving a sentence for revocation of
4 supervised release and had another federal matter
5 pending.

Id. ¶ 75.

Given his prior offenses,

6 Defendant was classified as a criminal history category
7 4.

Id. at 1, Guidelines Summary.

8

Over the lifetime of Defendant’s scheme, “the

9 weight of the pseudoephedrine possessed by [Defendant]
10 for resale was 1,202 kilograms.”

Id. ¶ 87.

Applying

11 the pseudoephedrine to methamphetamine conversion
12 formula outlined in Defendant’s PSR, this amount of
13 pseudoephedrine would yield approximately 1,762.9
14 kilograms of methamphetamine.
15

Id. ¶ 88.

Defendant’s PSR relied on the Guidelines Manual

16 that was in effect on November 1, 1997, in which an
17 offense level of 38 was applied to offenses involving
18 in excess of 15 kilograms of methamphetamine.
19 2D1.1 (Nov. 1997).

USSG §

The current guidelines apply a

20 level 38 base offense to offenses involving 45 or more
21 kilograms of methamphetamine.

Therefore, even applying

22 the present guidelines, the amount of methamphetamine
23 involved in Defendant’s offenses far exceeds that
24 required for a level 38 offense.
25 2D1.1(c)(1).

See U.S.S.G. §

Further, Defendant was determined to be

26 the organizer or leader of the scheme, which resulted
27 in an additional 4-level enhancement.
28

See PSR ¶ 91.

Additionally, in regard to the money laundering
8

App. 10a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 9 of 14 Page ID #:2588

1 counts, Defendant’s PSR notes that the base level
2 offense was 23.

Id. ¶ 91.

This was enhanced because

3 Defendant knew or believed that the funds were the
4 proceeds of activity involving the manufacture of
5 methamphetamine, the amount well exceeded $1,000,000,
6 and Defendant again was deemed the organizer/leader of
7 the activity.

Id. ¶¶ 97-99.

Ultimately, the total

8 offense level for the grouped offenses was 42.

Id. ¶¶

9 103-06.
10

While Defendant urges the Court to “put more weight

11 in the object facts than any expression of remorse,”
12 the objective fact is that Defendant continues to
13 question the legitimacy of his conviction and has
14 failed to provide the Court with any evidence that he
15 has made any efforts to rehabilitate himself during his
16 incarceration.

Contra U.S. v. Smith, 04-CR-2002-CJW-

17 MAR, 2020 WL 3913482, at *7 (N.D. Iowa July 10, 2020)
18 (“Although defendant has a flawed past, he has taken
19 significant steps over the last 16 years to
20 rehabilitate himself despite staring down a life
21 sentence and despite having multiple chronic medical
22 conditions.”).

Instead, Defendant acknowledges the

23 “extraordinary amount of pseudoephedrine” associated
24 with his offenses, see Mem. 7:21-23, but now attempts
25 to justify his prior acts by stating that “one can see
26 why [being found guilty of trafficking in
27 methamphetamine when no methamphetamine was ever found]
28 might be a tough pill to swallow,” id. at 7:12-26.
9

App. 11a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 10 of 14 Page ID #:2589

1

Given the severity of his offenses, the sentencing

2 options ranged from 360 months to life imprisonment.
3 PSR ¶ 36.

Defendant’s expected release date is

4 approximately eight years away.

See BOP Inmate

5 Locator, https://www.bop.gov/inmateloc/ (last accessed
6 August 10, 2020) (“Release Date: 08/06/2028”).
7 Considering the circumstances of the offense,
8 Defendant’s characteristics, and the types of sentences
9 available, the Court finds that these factors disfavor
10 compassionate release.
11

b.

Need for the Sentence Imposed: Punishment,

12

Deterrence, Medical Services, Educational

13

or Vocation Training

14

As mentioned above, Defendant does not deny the

15 severity of his offenses.

Instead, in regard to these

16 factors, Defendant exclusively argues that because of
17 the COVID-19 lockdown in FCI Lompoc the “quality of
18 chronic care for the other conditions is likely to be
19 undermined.”

Mot. 6:15-16.

But the need to provide

20 medical care in the most effective way is only one
21 consideration, among many, evaluated when determining
22 whether compassionate release is appropriate.

Absent

23 more, Defendant is unable to carry his burden to
24 justify compassionate release at this time.
25

While the Court acknowledges the hardships faced in

26 the federal prison system during the current pandemic,
27 and the Court does not mean to minimize the magnitude
28 of the ongoing tragedy of the pandemic, Defendant’s
10

App. 12a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 11 of 14 Page ID #:2590

1 bare allegations that he has been unable to access
2 certain healthcare as a result of the pandemic alone is
3 insufficient to substantiate his request for
4 compassionate release.

Defendant appears to have

5 contracted, and fully recovered from, COVID-19 while
6 incarcerated.

Further, as of the date of this Order,

7 there are currently one inmate and one staff member
8 with confirmed cases of COVID-19 in Defendant’s
9 facility.

See COVID-19 Cases,

10 https://www.bop.gov/coronavirus/ (last accessed August
11 10, 2020).
12

Despite, as Defendant points out, that there is

13 still much unknown about the disease, the Court finds
14 that given the severity of the offenses a reduction to
15 time served, with nearly eight years remaining until
16 Defendant’s projected release, would not properly
17 reflect the seriousness of the offenses, promote
18 respect for the law, or afford adequate deterrence to
19 criminal conduct.

See U.S. v. Willis, 382 F. Supp. 3d

20 1185, 1189 (D.N.M. 2019) (finding seriousness of
21 defendant’s offenses and his limited period of
22 incarceration precluded compassionate release
23 irrespective of defendant’s health conditions). As
24 such, the Court finds that the totality of these
25 factors also lean against compassionate release.
26 ///
27 ///
28
11

App. 13a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 12 of 14 Page ID #:2591

1
2

c.

Protection of the Public1

Defendant is currently seventy-five years old and

3 has a variety of serious health issues, which this
4 Court has already extensively discussed.

See First

5 Release Order 8:5-8 (acknowledging that Defendant
6 suffers from hypertension, heart failure, aortic valve
7 disorders with valve replacement, hyperlipidemia, and
8 gout).

Defendant claims that while he may have

9 “perceived that he was serving an unjust sentence, he
10 appears to have conformed his behavior to the
11 expectations of the facilities, earning all good time
12 credit that is available to him.”

Mem. 8:7-9.

13 Additionally, Defendant claims that “with a failing
14 heart, a failing kidney, and partial blindness, he
15 hardly seems the picture of a threat to the community.”
16 Id. at 8:11-13.

Finally, Defendant repeatedly relies

17 on his updated release plan, which states that he will
18 be living with his wife and son, and will receive
19 financial and medical benefits through the VA.

See Ex.

20 H in Supp. of Mot. (“Release Plan”), ECF No. 546-8.
21
22
23
24
25
26
27
28

1

U.S.S.G. § 1B1.13 also requires the Court consider whether
the defendant would be “a danger to the safety of any other
person or to the community as provided in 18 U.S.C. § 3142(g).”
The factors to be considered are: (1) the nature and
circumstances of the offense charged; (2) the weight of the
evidence against the person; (3) the history and character of the
person; and (4) the nature and seriousness of the dangers to any
person or the community that would be posed by the person’s
release. 18 U.S.C. § 3142(g). For similar reasons discussed
within this Order, the Court is unable to conclude that Defendant
would not pose a danger if released.
12

App. 14a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 13 of 14 Page ID #:2592

1

Balancing Defendant’s apparent lack of remorse and

2 prior criminal history against his age, serious health
3 conditions, and more developed release plan, is a close
4 call.

Ultimately, the Court is unable to conclude that

5 Defendant would not pose a risk should he be released.
6 Simply providing a more developed release plan is
7 insufficient to overcome the fact that the totality of
8 the section 3553(a) factors disfavor compassionate
9 release at this time.
10
11

d.

Comparative Sentence Analysis

Defendant fails entirely to address this section

12 3553(a) factor.

In addressing this factor, the Court

13 must consider the “the need to avoid unwarranted
14 sentence disparities among defendants with similar
15 records who have been guilty of similar
16 conduct . . . .”

18 U.S.C. § 3553(a)(6).

Of note

17 here, Defendant’s sister, Nelly Herrera, was also
18 sentenced to 360 months’ imprisonment for her
19 involvement in the same scheme.

See United States v.

20 Nelly Herrera, 2:02-cr-0531-RSWL-2, (C.D. Cal. Dec. 18,
21 2003) J. and Commitment Order, ECF No. 181.

Given the

22 importance of avoiding unwarranted sentence disparities
23 between parties like Defendant and his sister who were
24 both sentenced to 360 months’ imprisonment for their
25 involvement and offenses in the same scheme, this
26 factor disfavors compassionate release.
27

The Court fully understands the gravity of the

28 COVID-19 pandemic, especially as it impacts the federal
13

App. 15a

Case 2:02-cr-00531-RSWL Document 557 Filed 08/10/20 Page 14 of 14 Page ID #:2593

1 prisons.

But having considered the totality of the

2 section 3553(a) factors, the Court concludes that
3 Defendant has failed to present sufficient evidence to
4 carry his initial burden justifying release.

As such,

5 the Court DENIES Defendant’s Motion.
6
7

III. CONCLUSION
Based on the foregoing, the Court DENIES

8 Defendant’s Motion for Compassionate Release under 18
9 U.S.C. § 3582(c)(1).
10
11 IT IS SO ORDERED.
12
13 DATED: August 10, 2020
14
15

/s/ Ronald S.W. Lew
HONORABLE RONALD S.W. LEW
Senior U.S. District Judge

16
17
18
19
20
21
22
23
24
25
26
27
28
14

App. 16a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 1 of 13 Page ID #:2230

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12 UNITED STATES OF AMERICA,

) CR 02-531-RSWL-1
)
13
)
) ORDER RE: DEFENDANT’S
14
Plaintiff,
) MOTION TO REDUCE
) SENTENCE PURSUANT TO 18
15
v.
) U.S.C.
) § 3582(c)(1)(A)(i) [511]
16
)
17 CENOBIO H. HERRERA, SR., et )
)
al.,
)
18
)
Defendants.
19
)
)
20
)
21
Currently before the Court is Defendant Cenobio H.
22 Herrera Sr.’s (“Defendant”) Motion to Reduce Sentence
23 Pursuant to 18 U.S.C. § 3582(c)(1)(A)(i) (“Motion”)
24 [511], filed on January 23, 2020. Having reviewed all
25 papers submitted pertaining to this Motion, the Court
26 NOW FINDS AND RULES AS FOLLOWS: the Court DENIES
27 Defendant’s Motion.
28 ///
1

App. 17a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 2 of 13 Page ID #:2231

1
2

I. BACKGROUND
In May 2002, Defendant was indicted for: conspiracy

3 to aid and abet the manufacture of more than 500 grams
4 of a mixture or substance containing a detectable
5 amount of methamphetamine and to possess
6 pseudoephedrine knowing or having reasonable cause to
7 believe that it would be used to manufacture a
8 controlled substance, in violation of 21 U.S.C. § 846,
9 841(a)(1), 841(c)(2), and 18 U.S.C. §2; illegal
10 possession of pseudoephedrine in violation of 21 U.S.C.
11 § 841(c)(2); and conspiracy to commit money laundering
12 and substantive money laundering in violation of 18
13 U.S.C. §§ 1956(h), 1956(a)(1), and 1957 [1].

On March

14 19, 2003, a jury convicted Defendant on all counts of
15 the indictment [130, 133].

This Court entered judgment

16 against Defendant on December 22, 2003 [183], and
17 sentenced him to 360 months’ imprisonment [182].

Upon

18 release from imprisonment, Defendant shall be placed on
19 supervised release for a term of five years [182].
20
21 A.
22

II. DISCUSSION
Legal Standard
The First Step Act, Pub. L. No. 115-391, 132 Stat.

23 5194, was enacted in 2018 and permits a defendant to
24 directly petition the district court for a sentence
25 reduction under the compassionate release statute. See
26 18 U.S.C. § 3582(c)(1)(A). 18 U.S.C. § 3582(c)(1)(A)
27 incorporated the following procedures with respect to
28 requests for compassionate release:
2

App. 18a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 3 of 13 Page ID #:2232

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

The court may not modify a term of imprisonment
once it has been imposed except that the court,
upon motion of the Director of the Bureau of
Prisons, or upon motion of the defendant after
the defendant has fully exhausted all
administrative rights to appeal a failure of
the Bureau of Prisons to bring a motion on the
defendant’s behalf or the lapse of 30 days from
the receipt of such a request by the warden of
the defendant’s facility, whichever is earlier,
may reduce the term of imprisonment (and may
impose a term of probation or supervised
release with or without conditions that does
not exceed the unserved portion of the original
term of imprisonment), after considering the
factors set forth in section 3553(a) to the
extent that they are applicable, if it finds
that . . . extraordinary and compelling reasons
warrant such a reduction . . . and that such a
reduction is consistent with applicable policy
statements issued by the Sentencing
Commission . . . .
The statute establishes a three-step process for
Courts to evaluate a defendant’s request for
compassionate release.

First, a defendant must exhaust

his or her administrative remedies by either
“exhaust[ing] all administrative rights to appeal a
failure of the Bureau of Prisons to bring a motion on
the defendant’s behalf” or waiting until thirty days
have lapsed “from the receipt of such request by the
warden of the defendant’s facility” to reduce the term
of imprisonment.

Id.

Second, the district court

evaluates whether “extraordinary and compelling reasons
warrant such a reduction” and that such a reduction “is
consistent with applicable policy statements issued by
the Sentencing Commission.”

Id.

Third, the district

court considers the sentencing factors outlined in
“section 3553(a) to the extent that they are
3

App. 19a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 4 of 13 Page ID #:2233

1 applicable.”
2

Id.

The defendant “bears the initial burden to put

3 forward evidence that establishes an entitlement to a
4 sentence reduction.”

U.S. v. Greenhut, No. 2:18-CR-

5 00048-CAS-1, 2020 WL 509385, at *1 (C.D. Cal. Jan. 31,
6 2020) (citing U.S. v. Sprague, 135 F.3d 1301, 1306-07
7 (9th Cir. 1998)).
8 B.

Discussion

9

1.

10

Exhaustion of Administrative Remedies

The parties do not dispute that Defendant exhausted

11 his administrative obligations. Defendant made an
12 administrative request for a sentence reduction under
13 18 U.S.C. § 3582(c)(1)(A) in April 2017, which was
14 denied on September 21, 2017. See Opp’n 5:18-6:10, ECF
15 No. 516 (“[T]he government believes that it is
16 appropriate to proceed to the merits of defendant’s
17 motion. . . there is no reason to believe that
18 additional development of the administrative record
19 will be of assistance . . . .”).1
20
21
22
23
24
25
26
27
28

1

Defense Counsel’s supplemental brief argues that Defendant
is entitled to relief in part because his age and medical
conditions make him particularly susceptible to COVID-19. See
Supp. Brief 1:2-9, ECF No. 529. While the Court acknowledges the
unprecedented circumstances presented by the pandemic currently
sweeping the nation and the concerns of the prison population,
Defendant’s 2017 administrative request with the BOP did not, and
could not have, specify the COVID-19 concerns presented in the
Supplemental Briefing. As such, the BOP has not yet been given
the opportunity to review those concerns as Defendant never
sought compassionate relief on this basis. Defendant’s April
2017 request cannot be used to satisfy the administrative
exhaustion requirement for any request for compassionate relief,
which he later seeks to file with this Court. Therefore, to the
4

App. 20a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 5 of 13 Page ID #:2234

1

2.

Extraordinary and Compelling Reasons

2

Section 3582(c)(1)(A) permits a sentence reduction

3 only upon a showing of “extraordinary and compelling
4 reasons” and only if “such reduction is consistent with
5 applicable policy statements issued by the Sentencing
6 Commission.”

Congress never explicitly defined

7 “extraordinary and compelling reasons,” except to state
8 that “[r]ehabilitation . . . alone” is insufficient.
9 18 U.S.C. § 994(t).

Instead, Congress directed the

10 Sentencing Commission to define the term.
11

Section 1B1.13 of the United States Sentencing

12 Guidelines (“U.S.S.G.”) contains policy statements
13 issued by the Sentencing Commission that relate to
14 compassionate release.

Those policy statements, which

15 have not been amended since the First Step Act, state
16 that “the court may reduce a term of imprisonment . . .
17 if, after considering the factors set for in 18 U.S.C.
18 § 3553(a), to the extent they are applicable, the court
19 determines that–
20
21

(1) (A) Extraordinary and compelling reasons
warrant the reduction . . .

22
23 extent that Defendant’s request is predicated upon relief in
response to the COVID-19 crisis, the Motion is DENIED for failure
See U.S. v. Allen, 1:19-cr98-10, 2020 WL 1878774, at *1 (N.D. Ohio April 15, 2020) (finding
court lacked the authority to review the defendant’s motion for
compassionate release related to COVID-19 because the defendant
had failed to comply with the exhaustion and 30-day statutory
requirements); U.S. v. Schultz, 17-cr-193S, 2020 WL 1872352,
(W.D.N.Y April 15, 2020) (denying the defendant’s compassionate
release motion without prejudice because the defendant failed to
satisfy the mandatory exhaustion provisions of the statute).
5

24 to exhaust administrative remedies.
25
26
27
28

App. 21a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 6 of 13 Page ID #:2235

1
2

(2) The defendant is not a danger to the
safety of any other persons or to the
community, as provided in 18 U.S.C §
3142(g); and

3
4

(3) The reduction is consistent with this
policy statement.”

5

Subsections (A) to (C) of the Application Notes to

6 section 1B1.13 outline three specific circumstances of
7 “extraordinary and compelling reasons”: (A) the
8 defendant is suffering from a terminal or serious
9 illness, which substantially diminishes the defendant’s
10 ability to provide self-care within the correctional
11 facility and from which the defendant is not expected
12 to recover; (B) the defendant is at least 65 years old
13 with serious deterioration in physical or mental health
14 because of the aging process, and has served at least
15 ten years or 75 percent of his or her term of
16 imprisonment, whichever is less; or (C) two family
17 related circumstances. See id. app. n1 (A)-(C). The
18 policy statement also includes a catch all provision
19 for “extraordinary and compelling reason[s] other than,
20 or in combination with, the reasons described in
21 subdividisons (A) through (C).” Id. app. n1 (D).
22
Here, Defendant argues that he is entitled to
23 sentence reduction under section 3582(c)(1)(A) for
24 three reasons: (1) he received an unusually long and
25 unjustified sentence; (2) he was sentenced to an
26 unreasonably long term because he “exercised his
27 constitutional right to a jury”; and (3) his
28 “remarkable record of rehabilitation.”

See Mot. 2-3,

6

App. 22a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 7 of 13 Page ID #:2236

1 16.

None of these arguments provide a basis for

2 compassionate relief.

Additionally, Defendant also

3 briefly mentions that he suffers from a variety of
4 medical conditions including congestive heart failure.
5 Id. at 17.
6

In response, the Government argues that no

7 “extraordinary and compelling” medical condition exists
8 justifying compassionate release.

While it is true

9 that Defendant does not currently have a medical
10 condition which substantially impacts his ability to
11 self-care in his facility, the Government’s argument
12 ignores that Defendant meets the criteria outlined in
13 Application Note 1(B).

See U.S.S.G. 1B1.13, app.

14 n.1(B) (“the defendant is (i) at least 65 years old;
15 (ii) is experiencing a serious deterioration in
16 physical or mental health because of the againg
17 process; and (iii) has served at least 10 years or 75
18 percent of his or her term of imprisonment, whichever
19 is less).

Unlike Application Note 1(A), which the

20 Government exclusively relies, Application Note 1(B)
21 does not require Defendant’s health condition be
22 extreme or terminal.

Application Note 1(B) simply

23 requires that “the age-related deterioration to be
24 ‘serious.’”

U.S. v. Hansen, 07-CR-0520(KAM), 2020 WL

25 1703672, at *7 (E.D.N.Y. April 8, 2020) (citation
26 omitted).
27

Defendant is currently seventy-five years old,

28 suffers from a number of severe medical conditions, and
7

App. 23a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 8 of 13 Page ID #:2237

1 has served well over ten years of his sentence.

In

2 2017, Dr. Kenneth Russell evaluated Defendant and noted
3 Defendant’s extensive past medical and surgical
4 history.

See Dr. Russell Memo., Ex. B in Supp. of

5 Opp’n (“Medical Eval.”) 1, ECF No. 516-2.

Among other

6 conditions, Defendant suffers from hypertension, heart
7 failure, aortic valve disorders with valve replacement,
8 hyperlipidemia, and gout.

Id.

In 2012, Defendant had

9 a 3V CABG and subsequently in 2017 underwent an aortic
10 valve replacement.

Id.

Additionally, in the

11 memorandum denying Defendant’s request for
12 compassionate release, Warden Steve Langford
13 acknowledged that Defendant is being treated for
14 “serious medical conditions.”

See Mem. Denying Def.’s

15 BOP Request for Compassionate Release, Ex. C in Supp.
16 of Opp’n (“BOP Review Mem.”), ECF No. 516-3.

Further,

17 the BOP found that Defendant suffers from chronic or
18 serious medical conditions related to the aging
19 process.

See Def.’s Compassionate Relief Request, Ex.

20 A in Supp. of Opp’n (“Comp. Release Request”) 7, ECF
21 No. 516-1.

As such, the Court finds extraordinary and

22 compelling reasons exist favoring compassionate release
23 under U.S.S.G. 1B1.13 Application Note 1(B).

See

24 Hansen, 2020 WL 1703672, at *7 (E.D.N.Y. April 8, 2020)
25 (finding extraordinary and compelling reasons because
26 the defendant was 72-years-old, had served more than
27 ten years of his mandatory twenty year sentence and
28 suffered from serious, age-related deterioration
8

App. 24a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 9 of 13 Page ID #:2238

1 including hyperlipidemia, tuberculosis, glaucoma, high
2 blood pressure, type II diabetes, and memory loss).
3

3.

4

Simply finding that “extraordinary and compelling”

The Section 3553 Factors

5 reasons exist does not automatically entitle a
6 defendant to compassionate release.

Despite finding

7 that extraordinary and compelling reasons exist, here
8 the Court finds that the section 3553(a) factors
9 disfavor compassionate release.

18 U.S.C. § 3553(a)

10 provides the Court with a set of factors to be
11 considered during the original sentencing and which
12 need be reconsidered when evaluating compassionate
13 release.
14
15
16
17
18

The statute provides:

(a) Factors To Be Considered in Imposing a
Sentence. — The court shall impose a sentence
sufficient, but not greater than necessary, to
comply with the purposes set forth in paragraph
(2) of this subsection. The court, in
determining the particular sentence to be
imposed, shall consider—

19

(1) the nature and circumstances of the
offense
and the history and
characteristics of the defendant;

20

(2) the need for the sentence imposed—

21
22
23
24

(A) to reflect the seriousness of the
offense, to promote respect for the
law, and to provide just punishment
for the offense;
(B) to afford adequate deterrence to
criminal conduct;

25
26
27
28

(C) to protect the public from further
crimes of the defendant; and
(D) to provide the defendant with needed
educational or vocational training,
medical care, or other correctional
9

App. 25a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 10 of 13 Page ID #:2239

1

treatment in the most effective
manner;

2
3
4
5
6
7
8
9
10
11
12

(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing
range established for—
(A) the applicable category of offense
committed by the applicable category
of defendant as set forth in the
guidelines [issued by the Sentencing
Commission];
(5) any pertinent policy statement;
(6) the need to avoid unwarranted sentence
disparities among defendants with similar
records who have been found guilty of
similar conduct; and
(7) the need to provide restitution to any
victims of the offense.

13
14 18 U.S.C. § 3553(a)).
15

Here, Defendant fails to carry his burden to

16 justify why compassionate release is warranted in light
17 of these factors. Given the severity of Defendant’s
18 crime and the circumstances surrounding the offenses,
19 the Court finds that the section 3553(a) factors favor
20 denying Defendant’s Motion.
21

Defendant has a criminal record dating back to the

22 early 1980s and previously participated in a multi23 million dollar investment fraud in 1994 prior to the
24 conduct giving rise to the instant Action. See Pre25 Sentence Report (“PSR”) ¶ 27. Additionally, the PSR
26 requested a 4-level enhancement because Defendant was
27 found to be the organizer or leader of the criminal
28 offense. Id. ¶ 91. While the Court is aware that the
10

App. 26a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 11 of 13 Page ID #:2240

1 parties are familiar with the facts of this Action, it
2 is critical to emphasize the sheer amount of
3 pseudoephedrine associated with the offenses.
4 According to the calculations outlined by the National
5 Drug Intelligence Center, the amount of pseudoephedrine
6 involved would yield approximately 1,762.9 kilograms of
7 methamphetamine, well above the “15 kilograms or more”
8 specified in the highest guidelines at the time of
9 sentencing.
10

Id. ¶ 88.

Additionally, Defendant’s sentence was previously

11 affirmed by the Ninth Circuit.
12 ECF No. 400.

See Ninth Cir. Mem.,

All the while, Defendant has filed over

13 25 motions and petitions with the Court alleging
14 various defects with his conviction and sentence.
15 e.g., ECF Nos. 184, 301, 336, 414, 416, 486.

See,

Even in

16 the instant Motion, Defendant chooses to attack his
17 sentence stating that he was “sentenced to prison for
18 three decades . . . [because] . . . he exercised his
19 constitutional right to a jury trial.”

Mot. 2.

20 Defendant does not appear to appreciate the severity of
21 his offenses and still has over one third of his
22 sentence remaining.

The requested relief undermines

23 the need to “promote respect for the law,” “afford
24 adequate deterrence to criminal conduct,” and “avoid
25 unwarranted sentence disparities.”

18 U.S.C. §

26 3553(a).
27

Ultimately, Defendant bears the initial burden to

28 put forth evidence that establishes an entitlement to
11

App. 27a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 12 of 13 Page ID #:2241

1 sentence reduction and he has failed to do so.2
2 Defendant makes vague generalizations about why he is
3 deserving of compassionate release without seeming to
4 understand the circumstances and severity of his
5 actions.

Having considered the Section 3553(a)

6 factors, the Court finds that while Defendant qualifies
7 under U.S.S.G. 1B1.13 Application Note 1(B), given the
8 severity of his offenses, compassionate release is
9 improper.3

See U.S. v. Willis, 382 F. Supp. 3d 1185,

10 1189 (D.N.M. 2019) (finding seriousness of defendant’s
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

2

Defense Counsel makes general claims regarding Defendant’s
release plan. See Supp. Brief 9:2-11. But this plan fails to
provide the Court with adequate information and runs in direct
conflict with Defendant’s own statement that “that [his] family
has already abandoned [him] . . . .” Reply 4, ECF No. 518.
Defendant’s lack of a clear release plan is further evidence that
Defendant has failed to meet his burden to justify sentence
reduction.
3

The Sentencing Commission’s pre-First Step Act policy
statement provides that compassionate release is appropriate
where “the defendant is not a danger to the safety or any other
person or to the community” as provided in 18 U.S.C. § 3142(g).
See U.S.S.G. § 1B1.13(2). Defendant states that he is “a
statically good candidate for release”; however, this ignores
that in 2013 the BOP Unit Team believed that if released,
Defendant would rapidly resume participating in new criminal
activity. See Comp. Release Request 9. Defendant argues that
the BOP Unit Team’s finding was based entirely on likely Grade C
violations of supervision that occurred more than twenty years in
the past and claims that these incidents are “hardly indicative
of [Defendant’s] likelihood of success on supervision at the age
of 75.” Supp. Brief 7:3-12. But the Court is unable to conclude
given the severity of Defendant’s offense and his apparent lack
of remorse, which is highlighted by Defendant’s comment that he
“was given horrendously long term of imprisonment that has not
taught [him] anything new or better to improve [his] life. . . ,”
Reply 4, that Defendant is not a danger to the community should
he be released.
12

App. 28a

Case 2:02-cr-00531-RSWL Document 536 Filed 04/24/20 Page 13 of 13 Page ID #:2242

1 offenses and his limited period of incarceration
2 precluded compassionate release irrespective of
3 defendant’s health conditions); U.S. v. Esparaza, 1:074 cr-0294-BLW, 2020 WL 1696084, at *3-4 (D. Idaho April
5 7, 2020) (finding compassionate release not appropriate
6 despite defendant’s health problems because court could
7 not conclude that defendant is not a danger to the
8 safety of the community given the seriousness of his
9 drug trafficking conviction).
10
11

III. CONCLUSION
Based on the foregoing, the Court DENIES

12 Defendant’s Motion for Compassionate Release under 18
13 U.S.C. § 3582(c)(1)(A).
14
15 IT IS SO ORDERED.
16
17 DATED: April 24, 2020
18
19

/s/ Ronald S.W. Lew
HONORABLE RONALD S.W. LEW
Senior U.S. District Judge

20
21
22
23
24
25
26
27
28
13

App. 29a

